                                  Office of Inspector General
                                 Corporation for National and
                                          Community Service




            AGREED-UPON PROCEDURES FOR
              CORPORATION FOR NATIONAL
            AND COMMUNITY SERVICE GRANT
                   AWARDED TO THE
        CATHOLIC NETWORK OF VOLUNTEER SERVICE
                           OIG REPORT 08-11




                                 Prepared by:

                         Regis & Associates, PC
                      1400 Eye Street NW, Suite 425
                         Washington, DC 20005




This report was issued to Corporation management on July 14, 2008. Under the laws and
regulations governing audit follow-up, the Corporation is to make final management
decisions on the report’s findings and recommendations no later than January 14, 2009
and complete its corrective actions by July, 14 2009. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                         OFFICE OF INSPECTOR GENERAL

                                         July 14, 2008


TO:            Kristin McSwain
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Carol Bates /s/
               Assistant Inspector General for Audit


SUBJECT:       Report 08-11, Agreed-Upon Procedures of Corporation for National and
               Community Service Grants Awarded to Catholic Network of Volunteer Service


We contracted with the independent certified public accounting firm of Regis & Associates,
PC, (Regis) to perform agreed-upon procedures in its review of Corporation grants awarded
to Catholic Network of Volunteer Service (CNVS). The contract required Regis to conduct
its review in accordance with generally accepted government auditing standards.

Regis is responsible for the attached report, dated April 2, 2008, and the conclusions
expressed therein. We do not express opinions on CNVS’s Consolidated Schedule of
Awards, and Claimed and Questioned Costs; conclusions on the effectiveness of internal
controls; or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision on the findings
in this report is due by January 14, 2009. Notice of final action is due by July 14, 2009.

If you have questions pertaining to this report, please call me at 202-606-9356.

Attachment

cc:   James Lindsay, CNVS, Executive Director
      William Anderson, Deputy Chief Financial Officer, Financial Management
      Rocco Gaudio, Deputy Chief Financial Officer, Grants and Field Financial Management
      Sherry Blue, Audit Resolution Coordinator
      Lateef Abassi, CPA, Regis & Associates, PC



                   1201 New York Avenue, NW Suite 830, Washington, DC 20525
                     202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                       Senior Corps   AmeriCorps   Learn and Serve America
                            OFFICE OF INSPECTOR GENERAL
                   CORPORATION FOR NATIONAL AND COMMUNITY SERVICE

                   AGREED-UPON PROCEDURES FOR
 CORPORATION FOR NATIONAL AND COMMUNITY SERVICE GRANT AWARDED TO
              CATHOLIC NETWORK OF VOLUNTEER SERVICE


                                                      Table of Contents

                                                                                                                                      Page

Executive Summary ........................................................................................................             1

       Agreed-Upon-Procedures Scope ...........................................................................                        1

       Background ............................................................................................................         2


Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                              3

       Results ....................................................................................................................    4

             Exhibit A: .........................................................................................................      5
                Schedule of Questioned Education Awards, Accrued Interest Award and
                Administrative Fees ....................................................................................               5

             Exhibit B: Compliance Testing Results ...........................................................                         6

Appendix A –Catholic Network of Volunteer Service’s Response to the Draft Report

Appendix B – Corporation for National and Community Service’s Response to
             the Draft Report




                                                                    i
                                  EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Regis & Associates, PC to perform agreed-upon procedures
of Catholic Network of Volunteer Service (CNVS), solely to assist the OIG in compliance
testing of member files for AmeriCorps Education Award Program (EAP) Grant No.
05EDHMD002 to CNVS for Program Years (PYs) 2005-2006, 2006-2007 and 2007-2008.
As a result of applying these procedures, we have questioned administrative fees of $1,600,
education awards of $23,625 and an accrued interest award of $368.

The detailed results of our agreed-upon procedures (AUP) and questioned Administrative
Fees, Education and Accrued Interest Awards, are presented in the Independent
Accountants’ Report on Applying Agreed-upon Procedures, Exhibit A. A questioned amount
is an alleged violation of a provision of law, regulation, contract, grant, cooperative
agreement, or other agreement or document governing the expenditure of funds; or a finding
that, at the time of testing, such amounts is not supported by adequate documentation.

Questioned Amounts. As a result of testing a sample of transactions, we question the
following:

                                                                  Questioned

                      Award             AUP          Education     Accrued    Administrative
  Program             Number           Period         Award        Interest      Fees
Education Award                      08/01/2005-
Program            05EDHMD002        07/31/2006      $ 23,625       $ 368         $ 1,600

Compliance Testing Results. The results of our agreed-upon procedures revealed
instances of non-compliance with grant provisions, regulations, or Office of Management
and Budget (OMB) Circulars. Those instances of non-compliance are shown in Exhibit B in
the Compliance Testing Results section of the Independent Accountants’ Report on
Applying Agreed-Upon Procedures.

Exit Conference and Responses to Draft Report. The contents of this report were
discussed with CNVS and the Corporation at an exit conference held in Takoma Park
Maryland, on April 2, 2008. In addition, on May 6, 2008, we provided a draft of this report to
the CNVS and to the Corporation for comment. CNVS’ response to the findings and
recommendations in the draft report are included in Appendix A and summarized in each
finding. The Corporation did not respond to the individual findings and recommendations.
Its response is in Appendix B.

Agreed-Upon Procedures Scope

These agreed-upon procedures had the objectives of determining whether members
enrolled in the program were eligible, performed service in accordance with grant terms and
conditions and, if certified for an education award, performed the minimum service hours
required. We tested EAP Grant Number 05EDHMD002. The award period is August 1,
2005 to July 31, 2008. Members tested were limited to the period August 1, 2005, to
December 31, 2007. We tested 46 member files as part of the engagement planning phase,


                                              1
and 663 member files during the testing phase from a population of 3,317 member files.
We performed our procedures during the period December 3, 2007, through April 2, 2008.

The OIG’s agreed-upon procedures program, dated September 2007, provided guidance for
understanding CNVS and testing compliance with provisions of the Education Award
Program grant. We used IDEA sampling programming software to randomly select the
sample for our testing; however, we did not project the results of the sample to the
population of member files. These procedures are described in more detail in the
Independent Accountants’ Report on Applying Agreed-Upon Procedures.

Background

The Corporation supports national and community service programs that provide full- and
part-time opportunities for Americans to engage in service that fosters civic responsibility,
strengthens communities, and provides educational opportunities for those who make a
commitment to service. The AmeriCorps program is one of the Corporation’s three major
service initiatives. Approximately three-quarters of all AmeriCorps grant funding goes to
governor-appointed State service commissions, which award competitive grants to nonprofit
groups that then recruit AmeriCorps members to respond to local needs. The Corporation
distributes most of the balance of its funding directly to multi-State and national
organizations such as CNVS through a competitive grant process.

CNVS is a national membership organization of nearly 200 faith-based volunteer and
mission programs (Programs) that foster and promote full-time national and international
service opportunities for people of all backgrounds, ages and skills. CNVS supports and
enhances the work of its members by providing training, resources, networking
opportunities, and national advocacy.

Established in 1963, and formerly called International Liaison of Lay Volunteers in Mission,
CNVS is an independent, nonprofit affiliate of the U.S. Conference of Catholic Bishops.
CNVS’ operation is supported through program membership fees, grants, and contributions.
Eligible members participating in volunteer services with CNVS programs may earn an
AmeriCorps education award funded by the Corporation’s National Service Trust.




                                              2
  MANAGEMENT CONSULTANTS &
 CERTIFIED PUBLIC ACCOUNTANTS



                         INDEPENDENT ACCOUNTANTS’ REPORT ON
                           APPLYING AGREED-UPON PROCEDURES

Regis & Associates, PC performed the procedures that were agreed to by the OIG, solely to
assist it in compliance testing of member files for Education Award Program (EAP) Grant
No. 05EDHMD002 to CNVS for PYs 2005-2006, 2006-2007 and 2007-2008. This agreed-
upon procedures engagement was performed in accordance with standards established by
the American Institute of Certified Public Accountants and generally accepted government
auditing standards. The sufficiency of these procedures is solely the responsibility of the
OIG. Consequently, we make no representation regarding the sufficiency of the procedures
described below, either for the purpose for which this report has been requested or any
other purpose.

We were not engaged to, and did not perform an examination, the objective of which would
be the expression of an opinion on CNVS management’s assertions. Accordingly, we do
not express such an opinion. Had we performed other procedures, other matters might
have come to our attention that would have been reported to you.

We performed the following procedure to verify that:

        •        Hours recorded on members’ timesheets supported their eligibility to earn
                 education awards;

        •        Member timesheets, forms, and contracts were in members’ files and were
                 signed, dated, and did not contain discrepancies;

        •        Members’ service hours reported in the Corporation’s Web-Based Reporting
                 System (WBRS) agreed to hours recorded on members’ timesheets;

        •        Members were U.S. citizens, nationals, or lawful permanent residents and
                 obtained high-school diplomas or equivalency certificates;

        •        Criminal background checks were conducted for members with substantial
                 recurring contact with children or other vulnerable individuals;

        •        Contracts were signed by members and included required AmeriCorps
                 stipulations;

        •        Mid-term and end-of-term performance evaluations of members were
                 performed and documented;

        •        Eligibility for education awards for those members released for compelling
                 personal circumstances;

        •        Members’ enrollment, exit, and change-of status-forms were completed and
                 approved in WBRS within 30 days of members starting and ending service or
                 changing their status;

     1400 Eye Street, NW, Suite 425, Washington, D.C. 20005 Tel 202-296-7101 Fax 202-296-7284
       •      Members attended orientation;

       •      CNVS certified to the National Service Trust that members were eligible to
              receive education awards; and

       •      No more than 20 percent of the aggregate of all AmeriCorps members’
              service hours was spent in training and educational activities.

Results

As a result of applying the agreed-upon procedures we questioned administrative fees of
$1,600, education awards of $23,625 and a student loan accrued interest award of $368.
The questioned amounts are summarized in Exhibit A, Schedule of Questioned Education
Awards, Accrued Interest Award and Administrative Fees. The compliance testing results
are summarized in Exhibit B, Compliance Testing Results. Issues identified include the
following:

   1. Documentation in member files did not support eligibility.

   2. Some timesheets did not include documentation to support eligibility to earn an
      education award.

   3. Member files and related documentation were not retained by CNVS.

   4. CNVS did not have documentation to support criminal record checks as part of the
      member screening process.

   5. Members recorded service hours before contracts were signed.

   6. Members’ contracts lacked Corporation required clauses on Civil Rights and Equal
      Opportunity.

   7. Lack of evidence that mid-term and end-of-term performance evaluations were
      performed.

   8. CNVS did not complete member enrollment, exit, and change-of-status forms and
      enter them into the Corporation’s WBRS in a timely manner.

   9. CNVS did not retain documentation of member attendance at orientation sessions.

   10. CNVS monitoring procedures were not fully performed, or results were not always
      documented.




                                              4
                                                                           EXHIBIT A

                    CATHOLIC NETWORK OF VOLUNTEER SERVICE
                         EDUCATION AWARDS PROGRAM

  SCHEDULE OF QUESTIONED EDUCATION AWARDS, ACCRUED INTEREST AWARD
                       AND ADMINISTRATIVE FEES

                                                           Questioned

                     Exception   Program       Education   Accrued      Administrative
 Operating Site         Type       Year         Award      Interest        Fees
                    No Member    2005 -
Heifer Ranch        Files        2006           $4,725     $ 368           $ 400
Augustinian         No Member    2005 -
Volunteers          Files        2006           $4,725                     $ 400
Colorado
Vincentian          No Member    2005 -
Volunteers          Files        2006           $4,725                     $ 400
Augustinian         No Member    2005 -
Volunteers          Files        2006           $4,725                     $ 400
  Total Files not
      Found                                     $18,900    $ 368           $1,600
                    Missing      2005 -
Heifer Ranch        Timesheet    2006           $4,725
 Total Timesheet
  Discrepancies                                 $4,725
Total Questioned
     Amounts                                    $23,625    $ 368           $ 1,600




                                           5
                                                                                  EXHIBIT B

                    CATHOLIC NETWORK OF VOLUNTEER SERVICE
                          EDUCATION AWARD PROGRAM

                            COMPLIANCE TESTING RESULTS

Finding 1.   Some timesheets did not include documentation to support eligibility,
             and hours were not accurately recorded in the Corporation’s WBRS.

Service hours recorded in WBRS for 41 members tested did not agree with hours reported
on the members’ timesheets. These differences did not affect the members’ eligibility to
earn education awards for 40 of the 41 members, because the earned and supported hours
on timesheets exceeded the Corporation’s service-hour requirements. We also noted that
timesheets for eight members missing from their files could not be located, including the one
member where the difference did affect member’s eligibility to earn an education award.

We have questioned the education award for that member in the amount of $4,725.

In addition, we determined that 345 members had timesheets exhibiting a combination of
the following issues:

       •      Lack of member and/or supervisor signature.
       •      Untimely dates, or were all signed on the same date.
       •      Changes made to timesheets were not initialed as corrected.

The 345 member files included 167 members in the PY 2005 – 2006, 142 members in PY
2006 – 2007, and 36 members in PY 2007 – 2008, respectively.

Program officials did not always thoroughly review the timesheets and other forms used to
ascertain completeness of hours recorded by the members, and also did not ensure that site
supervisors signed the member timesheets. CNVS attributed the differences between the
hours listed on the timesheets and the hours recorded in WBRS to its bi-weekly time
reporting system. Although bi-weekly timesheet reporting may include hours across two
months, CNVS would report all the hours on the timesheet in the month that the bi-weekly
timesheet period began.

Additionally, in 2007 CNVS instituted a process where timesheets are sent to its
headquarters on a monthly basis for review. Timesheets that are not properly completed
are returned to the program office for correction, which sometimes may include the addition
of a revised date that is outside the reporting period when the timesheets are returned to
headquarters.

Without procedures to verify member activities or timesheet accuracy, the potential exists
that members may perform prohibited activities or receive unearned education awards.




                                              6
Criteria

The 2005/2006 AmeriCorps Education Award Grant Provision Section IV.F.1. Terms of
Service, Program Requirements, states that to be eligible for an education award:

      Each Program must, at the start of the term of service, establish the guidelines
      and definitions for the successful completion of the program year, ensuring that
      these program requirements meet the Corporation’s service hour requirements
      as defined below:

             a. Full-Time Members. Members must serve at least 1700 hours during
             a period of not less than nine months and not more than one year.
             b. Half-Time Members. Half-time members must serve at least 900
             hours during a period of one or two years as indicated in the approved
             budget.
             c. Reduced Half-Time Members. Reduced half-time members must
             serve at least 675 hours over a time not to exceed one year.
             d. Quarter-Time Members. Quarter-time members must serve at least
             450 hours over a time not to exceed one year.
             e. Minimum Time Members. Minimum time members must serve at
             least 300 hours over a time not to exceed one year.

The CNVS Program Director’s Handbook, Part II, Section 2-10, Site Supervisor
Requirements states:

      Monitor Service Hours and Activities

      One extremely important role of the Site Supervisor is to monitor the number of
      hours a member has served in order to verify the member’s eligibility for the
      Segal Education Award. The Site Supervisor, therefore, must approve a record
      of the members’ service hours. The service hours should be recorded by the
      members on their tracking tools. Site Supervisors should approve service hours
      on a weekly, bi-weekly, or monthly basis (with a signature), make sure they are
      approving only AmeriCorps-allowable activities.

Recommendation

We recommend that the Corporation:

1a.      Require CNVS to comply with its procedures to ensure the review and approval of
         hours recorded on timesheets takes place, timesheets are signed by the member
         and supervisor and changes to timesheets are initialed by the member and
         supervisor, and that documentation of the review exists.

1b.      Disallow and recover education awards for members determined to be ineligible.




                                                7
CNVS’ Response

CNVS stated that, in PY 2005-06, it required that programs submit member paperwork
directly to CNVS headquarters for processing. However, it took some time for programs to
absorb many of the new changes and documentation requirements. CNVS said it will
develop more detailed guidance on recording hours, submission schedules, and supporting
documentation.

CNVS also stated that, starting in 2008, it will use an online time and reporting system,
which will increase the efficiency of recording and monitoring of hours and service activities.


Auditor’s Comment.

The actions proposed and implemented by CNVS should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented.


Finding 2.   Documentation in member files did not support eligibility.

Files for seven members did not include documentation to support evidence of citizenship or
lawful permanent residency. The files for six of the seven members contained the CNVS
standard form used to certify the program official’s review of members’ citizenship or
residency documents “CNVS Member Eligibility Verification Form.” However, the form did
not specify the type of eligibility document that the authorized program official reviewed.

CNVS was able to subsequently provide copies of passports and birth certificates or other
support for the seven members.

The program staff may have reviewed citizenship documentation, however it did not include
properly completed CNVS/EAP Member Eligibility Verification Forms in the member file.

Programs that do not maintain documentation to ensure that applicants meet the citizenship
or residency eligibility requirements are at risk of enrolling members who may not be eligible
to participate in the AmeriCorps EAP.

Criteria

The 2005/2006 AmeriCorps Education Award Grant Provisions, Section IV.M.2. Member
Records and Confidentiality, states in part,

   Verification. To verify U.S. citizenship, U.S. national status or, U.S. lawful
   permanent resident alien status, the grantee must obtain and maintain
   documentation as required by 45 C.F.R. §2522.200(b) and (c). The Corporation
   does not require programs to make and retain copies of the actual documents
   used to confirm age or citizenship eligibility requirements, such as a driver’s
   license, or birth certificate, as long as the grantee has a consistent practice of
   identifying the documents that were reviewed and maintaining a record of the
   review.



                                               8
According to 45 C.F.R. § 2522.200, What are the eligibility requirements for an AmeriCorps
participant?, every AmeriCorps participant is required to be a citizen, national, or lawful
permanent resident alien of the United States.


Recommendation

We recommend that the Corporation:

2.     Require CNVS to adhere to the grant provisions to ensure that adequate
       documentation is obtained and maintained to verify member eligibility.

CNVS’ Response

CNVS acknowledged that programs or sites had not always filled out their standard eligibility
form correctly and completely. CNVS now requires these eligibility forms be filled out
completely before a member can be enrolled. CNVS noted that it has developed a policy for
programs to maintain copies of eligibility documentation unless prohibited by state law.

Subsequent to the draft report issuance, CNVS provided proof of citizenship for one
member whose eligibility documentation was questioned, and CNVS requested that the
questioned amounts be excluded from the final report.


Auditor’s Comment.

The policy to review completed eligibility forms before a member is enrolled is adequate,
provided that the policy can be effectively enforced at the program or site level.

CNVS provided documentation that verified member eligibility for one member. The
Schedule of Questioned Education Awards, Accrued Interest, and Administrative Fees on
page 5 of the report was revised to exclude the questioned amounts for that member.
However, the non-compliance with program requirements finding remains because the
eligibility documentation was not in the member file during the auditors’ review.


Finding 3.   Member files and related documents were not retained by CNVS.

Our review of 663 member files showed that CNVS did not retain any records for four
members. We were unable to review documentation to determine eligibility to participate in
the program, or review timesheets to support earned education awards.
As a result of the missing files, we questioned $20,868, which consists of $18,900 in
education awards, a $368 student loan accrued interest award for one of these members,
and $1,600 administrative fees paid to CNVS for the four members.

The four members participated during the PY 2005-2006. CNVS converted its paper-based
files for that program year to electronic files. However, CNVS did not, in all cases, ensure
that electronic files were successfully converted before discarding the paper files.

The inability to demonstrate member eligibility or to establish that adequate service hours
were completed can result in a questioned education award.

                                              9
Criteria

The AmeriCorps 2005/2006 Education Award Grant Provision Section V.D. Retention of
Records requires grantees to retain all program records for 3 years from the date of the
submission of the applicable final closeout documents. If an audit is started prior to the
expiration of the 3-year period, the records must be retained until the audit findings involving
the records have been resolved and final action taken.

CNVS Program Director’s Handbook, 2.8- Member Records and Confidentiality

     a. Record-Keeping. The grantee must maintain records that document each
     member’s eligibility to serve pursuant to the member eligibility requirements in
     clause A.8. of these provisions. The records must be sufficient to establish that
     the individual was eligible to participate in the program and that the member
     successfully completed the program requirements.

Title 45 C.F.R. §2529.10 (a) Eligibility, states that the Corporation will pay interest that
accrues on an individual’s qualified student loan only if the member successfully completes
a term of service in an approved AmeriCorps position

Recommendation:

We recommend that the Corporation:

3.   Disallow and recover from CNVS questioned education awards, accrued interest award
     and administrative fees.

CNVS’ Response

CNVS stated that a process has been established to manually review each file scanned and
stored electronically before it is shredded. In addition, programs are required to keep copies
of all original forms sent to CNVS. More detailed guidance on CNVS’ record retention policy
will be provided to the programs.

Auditor’s Comment.

The actions proposed and implemented by CNVS should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented.


Finding 4.    CNVS did not have documentation to support criminal record checks as
              part of the member screening process.

CNVS could not provide documentation to support criminal background checks completed
as part of the screening process for 21 members. Sixteen members in PY 2005 – 2006 and
five members in PY 2006-2007 did not have evidence that background checks had been
conducted.

CNVS management noted that many of these members are continuing members, and they
may have had criminal background checks conducted at the beginning of their service.

                                               10
Without documentation of required criminal background checks, members who should not
have been working with children or other vulnerable persons may have had substantial
direct contact with them, thus resulting in a potential liability for CNVS and the Corporation
and posing a potential danger to the persons being served.


Criteria:

The 2005/2006 AmeriCorps Education Award Program Grant Provisions, Section IV.C.
Member Enrollment, states:

     Criminal Background Checks. Programs with members (18 and over) or grant-
     funded employees who, on a recurring basis, have access to children (usually
     defined under state or local law as un-emancipated minors under the age of 18)
     or to individuals considered vulnerable by the program (i.e. the elderly or
     individuals who are either physically or mentally disabled), shall, to the extent
     permitted by state and local law, conduct criminal background checks on these
     members or employees as part of the overall screening process.

     The grantee must ensure, to the extent permitted by state or local law, that it
     maintains background check documentation for members and employees
     covered by this provision in the member or employee’s file or other appropriate
     file. The documentation must demonstrate that, in selecting or placing an
     individual, the grantee or the grantee’s designee (such as a site sponsor)
     reviewed and considered the background check’s results.

Recommendation:

4.      We recommend that the Corporation require CNVS to develop and implement
        policies and procedures for obtaining and retaining documentation to show that
        criminal background checks were conducted and the results were considered as part
        of the member screening process.

CNVS’ Response

CNVS now requires a complete criminal history check verification form for all members
before enrollment, regardless of their service position or term of service.

Auditor’s Comment.

The actions proposed and implemented by CNVS should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented and meet
the requirements for background checks effective November 23, 2007.

Finding 5.    Members recorded service hours before contracts were signed.

Our review of 663 member files showed that 122 members served and recorded service
hours before they had signed member contracts. We did not question the education awards
because the members earned sufficient hours after the contracts were signed to earn
education awards.

                                               11
According to CNVS, the dates on the contracts may not match those of the service dates
because, in some cases, contracts were submitted to CNVS unsigned by the member or the
program director. CNVS enrolled members as long as the paperwork was complete, but the
contract was returned to the member or program director for the appropriate signature.

Individuals who record service time before contracts are in place may receive benefits,
including an education and accrued interest awards, to which they are not entitled.
Individuals do not become members until they have signed an AmeriCorps contract.

Criteria

The 2005/2006 AmeriCorps Education Award Grant Provisions, Section IV.C. AmeriCorps
Special Provisions, Member Enrollment, states in part:

   1. Member Enrollment Procedures.

       a. An individual is enrolled as an AmeriCorps member when all of the
          following have occurred:
          i. He or she has signed a member contract;
          ii. The program has verified the individual's eligibility to serve;
          iii. The individual has begun a term of service; and
          iv. The program has approved the member enrollment form in
          WBRS.

       b. Prior to enrolling a member in AmeriCorps, programs make
          commitments to individuals to serve. A commitment is defined as
          signing a member contract with an individual or otherwise entering
          into a legally enforceable commitment as determined by state law.

Recommendation:

   5. We recommend that the Corporation require CNVS to ensure that members sign
      contracts before performing service and recording service hours.

CNVS’ Response

CNVS acknowledged the finding as a weakness, and described its policy on training and
member file review before enrollment. This policy has now been included in the member,
site supervisor, and program handbooks.


Auditor’s Comment.

The actions proposed and implemented by CNVS should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented.




                                             12
Finding 6.    Member contracts did not include required clauses on Civil Rights and
              Equal Opportunity.

The contract used by CNVS for PYs 2005-2008 did not include the AmeriCorps requirement
that Civil Rights and Equal Opportunity clauses be stipulated. All member contracts
reviewed lacked these requirements.

CNVS officials indicated that these provisions are included in its program director’s
handbook and that the information is communicated to members during orientation. CNVS
noted that it will revise the member contract to ensure that it meets these requirements.

By not including these requirements in the member contracts, members may not be aware
of rights under Civil Rights and Equal Opportunity as they relate to the EAP program.

Criteria

The 2005/2006 AmeriCorps Education Award Grant Provisions, Section V.F.3, Public Notice
of Nondiscrimination, states:

     The grantee must include information on civil rights requirements, complaint
     procedures and the rights of beneficiaries in member contracts, handbooks,
     manuals, pamphlets, and post in prominent locations, as appropriate.

Recommendation:

6.      We recommend that the Corporation ensure that CNVS member contracts include all
        requirements stipulated in the grant.

CNVS’ Response

CNVS has revised the member contract to include the required clauses, and all PY 2007-08
handbooks issued to programs as of June 2008 will include a contract addendum with the
required clauses.

Auditor’s Comment.

The actions proposed and implemented by CNVS should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented.


Finding 7.    CNVS did not have documentation that mid-term and end-of-term
              performance evaluations were performed.

Our review of 663 member files found that 180 member files lacked either mid-term or end-
of-term evaluation forms. CNVS program site supervisors at times did not identify
evaluation forms as either mid-term-or-end of term.

Without final evaluations, CNVS or its program sites may not be able to determine whether a
member satisfactorily completed his or her term of service, is eligible for an education
award, or eligible to serve a second term. Properly completed evaluations are necessary to


                                              13
ensure that members are eligible for additional service terms and that grant objectives have
been met.

Criteria

Title 45 C.F.R. § 2522.220(d) Participant performance review, states that:

     For the purposes of determining a participant's eligibility for a second or
     additional term of service and/or for an AmeriCorps educational award, each
     AmeriCorps program will evaluate the performance of a participant mid-term and
     upon completion of a participant's term of service. The end-of-term performance
     evaluation will assess the following: (1) Whether the participant has completed
     the required number of hours described in paragraph (a) of this section.

The CNVS Program Director’s Handbook, Section 4.8 Member Performance Evaluation
provides a pre-established evaluation form that should be completed in its entirety, and
provides a box to be checked for mid-term or end-of-term evaluations.

Recommendation:

7.       We recommend that the Corporation ensure that CNVS adheres to the grant
         provisions regarding the mid-term and end-of-term evaluation.

CNVS’ Response

CNVS has redesigned the standard member evaluation form and form titles to make it clear
that one form is the Mid-Term Performance Evaluation and the other is End-of-Term
Member Performance Evaluation. In addition, CNVS now sends reminders and guidance to
programs and members regarding the timing of the mid-term and end-of-term evaluations.

Auditor’s Comment.

The actions proposed and implemented by CNVS should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented.


Finding 8.    CNVS did not complete member enrollment, exit, and change-of-status
              forms and enter them into WBRS in a timely manner.

     Our review of 663 member files showed that CNVS did not have adequate
     documentation to demonstrate whether enrollment and exit forms were properly
     completed and submitted in a timely manner for 417 members. Specifically, we noted
     the following:

     •   CNVS did not enter 115 member enrollment forms into WBRS within 30 days of
         member start dates.

     •   CNVS did not enter 201 member exit forms in WBRS within 30 days of members
         completing service.



                                             14
     •    CNVS did not properly complete 226 member enrollment and exit forms. These
          forms lacked member and/or supervisor signatures or were undated.

     •    CNVS did not enter two member change-of-status forms into WBRS within 30 days
          of the status change.

     •    Files for 10 members were missing either the entire enrollment and exit forms or
          pages of the forms, and did not contain the page requiring program directors to
          certify member eligibility for education awards to the National Service Trust.

     Without accurate and timely submission of these forms, the Corporation cannot maintain
     timely and accurate member records and CNVS may not be able to properly review,
     track, and monitor program site activities and accomplishments.

Criteria

The 2005/2006 AmeriCorps Education Award Grant Provisions, Section IV.O.3. AmeriCorps
Special Provisions, Reporting Requirements, states in part:

           AmeriCorps Member-Related Forms. The grantee is required to submit
         the following documents to the National Service Trust at the Corporation on
         forms provided by the Corporation. Grantees and sub-grantees may use
         WBRS to submit these forms electronically. Programs using WBRS must
         also maintain hard copies of the forms.

            a. Enrollment Forms. Enrollment forms must be submitted no later
            than 30 days after a member is enrolled.

            b. Change of Status Forms. Member Change of Status Forms must be
            submitted no later than 30 days after a member’s status is changed. By
            forwarding Member Change of Status Forms to the Corporation, State
            Commissions and Parent Organizations signal their approval of the
            change.

            c. Exit/End-of-Term-of-Service Forms. Member Exit/End-of-Term-of-
            Service Forms must be submitted no later than 30 days after a member
            exits the program or finishes his/her term of service.

Recommendation:

8.        We recommend that the Corporation require CNVS to develop and implement
          policies and procedures to ensure that member enrollment, exit, and change-of-
          status forms are maintained in member files, and submitted to the Corporation as
          required.

CNVS’ Response

CNVS has developed a policy that requires headquarters receive enrollment and exit
paperwork within 15 calendar days from the service start or end dates. In addition, all
exiting members and corresponding programs will receive a reminder exit e-mail and
checklist approximately 45 days before member’s expected exit date. CNVS is currently

                                                15
developing a form and establishing a process which will ensure that change-of-status forms
are processed and approved by CNVS and sent to the Corporation within the deadline.

Auditor’s Comment.

The actions proposed and implemented by CNVS should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented.


Finding 9.   CNVS did not retain documentation of member attendance at orientation
             sessions.

Our review of 663 member files showed that CNVS did not retain sign-in sheets or other
documentation to support member attendance at AmeriCorps orientation sessions for four
members.

According to CNVS officials, these instances of non-compliance were due to an oversight at
the program site. CNVS noted that all members go through orientation.

Retention of orientation sign-in sheets is necessary to ensure that members are
knowledgeable about properly fulfilling all program requirements. If a member does not
participate in the required orientation, they may not be aware of requirements to which they
must adhere to successfully complete the EAP program.

Criteria

The 2005/2006 AmeriCorps Education Award Grant Provision IV.E.3. Training, Supervision,
and Support, states that:

        The grantee must conduct an orientation for members and comply with any
       pre-service orientation or training required by the Corporation. This orientation
       should be designed to enhance member security and sensitivity to the
       community. Orientation should cover member rights and responsibilities,
       including the Program's code of conduct, prohibited activities (including those
       specified in the regulations), requirements under the Drug-Free Workplace Act
       (41 U.S.C. 701 et seq.), suspension and termination from service, grievance
       procedures, sexual harassment, other non-discrimination issues, and other
       topics as necessary.


Recommendation:

9.     We recommend that the Corporation require CNVS to adhere to the grant provisions
       and ensure that it retains all documentation to support member attendance at
       orientation.

CNVS’ Response

CNVS has an acknowledgement form as part of its enrollment forms, in which the member
certifies that he or she attended the AmeriCorps orientation. These forms are now reviewed
by CNVS for completeness before enrollment.

                                             16
Auditor’s Comment.

The actions proposed and implemented by CNVS should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented.



Finding 10.   CNVS monitoring procedures were not fully performed, or results were
              not always documented.

CNVS did not comply with its guideline for program site monitoring. Site visits were done
infrequently and were usually not documented. However, CNVS maintained verbal contact
and other oversight functions with the various program sites.

Lack of adequate monitoring at the site level could lead to some of the findings discussed
above, including missing files and lack of properly completed forms. These problems could
eventually lead to disallowance of member education awards.

Criteria

The 2005/2006 AmeriCorps Education Award Grant Provisions, Section V.A. General
Provisions, Responsibilities under Grant Administration, states in part:

   1. Accountability of Grantee. The grantee has full fiscal and programmatic
   responsibility for managing all aspects of the grant and grant-supported
   activities, subject to the oversight of the Corporation. The grantee is accountable
   to the Corporation for its operation of the AmeriCorps Program and the use of
   Corporation grant funds. The grantee must expend grant funds in a judicious
   and reasonable manner, and it must record accurately the service activities and
   outcomes achieved under the grant.

Title 45 C.F.R. § 2543.51(a), Monitoring by grantees, states:
   Recipients are responsible for managing and monitoring each project, program,
   subaward, function or activity supported by the award. Recipients shall monitor
   subawards to ensure subrecipients have met the audit requirements as delineated in
   Section § 2543.26.

Recommendation:

We recommend that the Corporation ensure and verify that CNVS:

   10a. Follow its guidelines for program site monitoring.

   10b. Document the results of monitoring procedures performed and retain evidence of
        monitoring in its files.




                                             17
CNVS’ Response

CNVS stated that turnover in its full-time staff resulted in inconsistent monitoring. CNVS
also acknowledged that, while CNVS did perform monitoring site visits, they were not
documented or documentation was not maintained. CNVS has developed an annual site
visit schedule and is in the process of developing an internal manual, which will include
procedures for documenting the site visits. A site visit follow-up report will also be prepared
and will be maintained with the program file.


Auditor’s Comment

The actions proposed and implemented by CNVS should be considered by the Corporation,
which should also follow up to ensure that the planned actions were implemented.



This report is intended for the information and use of the Office of Inspector General,
Corporation management, CNVS, and the U.S. Congress. However, this report is a matter
of public record and its distribution is not limited.




Regis & Associates, PC
April 2, 2008




                                              18
Appendix A – Catholic Network of Volunteer Service’s Response to the Draft Report




                                        19
                                   Catholic
                                   Network of
                                   Volunteer Service
                                   Connecting People, ~ A n s f o r r n i n~
                                                                           ~ i k



                                                         Catholic N e t w o r k of Volunteer Service
                                                         AmeriCorps Education Awards Program




                                                                Catholic Network of Volunteer Service
                                                                 Response to the Draft Audit Report
                                                                            June 3rd,2007
                               1
                               1   Catholic Network of Volunteer Service (CWVS) recognizes and values the importance of faithful
                               i   and responsible stewardship of taxpayers' investment in national service. CNVS is committed to
                               1   strengthening its program through the corrective actions and clarifications established in this
                                   response.
             I     *
                               I
                               1    CLARlFlCATlONlERROR CORRECTION
6930 Carroll Avenue    ,       4
                                    1.       Discrepancy of hours in timesheets and in the Corporation's WBRS.
Suite 820                  I   4
Takoma Park, MD                i   The process through which CNVS enters hours on record has created what appears to be a
                                   discrepancy between the monthly record of hours in WBRS and the actual monthly record of
                                   hours. However, in reality there is no such discrepancy.

                                    Members submit a record of hours for a two-week period to CNVS in a bi-weekly tracking tool.
                                    CNVS enters the tracking tool hours in chronological and consecutive order in the monthly record
                                    window in WBRS. It is often the case that a tracking tool will include dates from two consecutive
                                    months, which as assigned by CNVS, are entered into WBRS as belonging to one of the two
                                    months. The reason for this process is to allow for a more efficient and effective transfer of
301.270.0901 fax               I    record from paper into WBRS for the more than 1,000 tracking tools that CNVS receives every
                               f
volunteer9cnvs.org
                           -1
                               .    month.

                                    In addition, it should be noted that CNVS has processes in place to monitor members' progress
                                    towards the completion of the minimum hour requirement during their term of service; and upon a
                                    member's completion, CNVS carefully reviews the entries on WBRS to ensure that the overall
                                    record of hours matches the paper record before it certifies that the record is accurate and meets
                                    the minimum hour requirement.

                                    RESPONSE TO THE AUDIT FINDINGS

                                    1. Some timesheets did not include documentation to support eligibility, and hours were
                                       not accurately recorded in the Corporation's WBRS.

                                    In 2005-06, CNVS began to require that programs submit member paperwork directly to CNVS
                                    for processing. This was designed to ensure that there was an accurate and appropriate review
                                    and approval process by CNVS. It took some time for programs to absorb many of the new
                                    changes and documentation requirements to be sent to CNVS. Throughout this process, CNVS
                                    has continually sought to strengthen trainings for programs and to establish greater clarity
                                    regarding program requirements. In 2007, CNVS reviewed its training and orientation strategies
                                 Catholic
                                 Network of
                                 Volunteer Service
                                                                                                          I
                                 Connecting People, Transforming Lives
                                 for new and continuing programs and will develop more detailed guidance on the recording of
                                 hours, submission schedules, and supporting documentation.

                                 Elsewhere we have addressed the issue of hours not accurately recorded in WBRS as a result of
                                 the bi-weekly tracking tool system. Notwithstanding, as of 2008, CNVS will use a time and
                                 reporting system which will allow for members to enter hours online and thereby minimize data
                                 entry error. It will also allow for an audit trail, an approval and correction system, and a more
                                 transparent and efficient recording and monitoring of hours and service activities that will be
                                 equally accessible to members, program directors, and CNVS AEAP staff.

                                  Finally, CNVS is stepping up its efforts to develop specialized training hodules for the program
                                  for members, site supervisors, and program directors to ensure that all parties understand their
                                  roles and responsibilities with respect to the reporting and monitoring of member hours by
                                  program directors.

                                  2. Documentation in the member files did not support eligibility.

                                  CNVS has had a policy in place whereby program directors view and are required to sign off on
                                  one of several eligibility documents required by the Corporation that provides proof of citizenship
                             1
                                  or permanent residency. While it is true that in the past, programs have not always filled out this
6930 ~ a r r b l&enue
                l            1    form correctly, CNVS took steps last year to review program forms and ensure they were filled
                                  out completely and correctly before a member can be enrolled. In addition. CNVS has developed
Suite 820                -4  I
                                  a policy for programs to keep copies of eligibility documentation viewed unless prohibited by state
                                  law.

                                  CNVS did receive proof of citizenship for the one member whose eligibility documentation was
                                  questioned by the auditors. This proof of citizenship was scanned and sent via email to the Audit
                                  Manager Stuart Axenfeld. CNVS therefore requests that the Corporation revise the Schedule of
                                  Questioned Education Awards, Accrued Interest, and Administrative Fees on page 5 of the report
                                  to exclude the questioned amounts for the 2005-06 member serviug with Youth Services
                                  Opportunities Project whose award is being questioned.

301.270.0901 fax    ,,            3.   Member files and related documents were not retained by CNVS.
                         f
                                  CNVS has taken the following measures to ensure the future integrity of its electronic file policy.
                                  A process has been established to manually review each file scanned and stored electronically
                                  before it is shredded. In addition, programs are now required to keep copies of all original forms
                                  sent to CNVS. A review of paperwork at the program level is included in monitoring visits. CNVS
                                                                                                                             '


                                  is also clarifying its record retention policy and providing programs with more detailed guidance
                                                                                                           ,
                                  on this issue.

                                  4. CNVS did not have documentation to support criminal record checks as part of the
                                       member screening process.

                                  CNVS has established and implemented policies to ensure that the criminal record check has
                                  been properly reviewed before a member is enrolled. CNVS has developed specific policies on
                                  the requirements for enrollment, which now include the National Sex Offender Public Registry
                                  Check and the state criminal registry or FBI fingerprint check. CNVS has also developed a
                                  specific policy for consecutive year members. In addition, a complete criminal history check
                                  verification form is required for all members before enrollment, regardless of their service
                                  position, or whether it is their first or second term of service.

                                  5.   Members recorded service hours before contracts were signed.
                                         Catholic
                                         Network of
                                         Volunteer Service
                                         Connecting People, Transforming Lives



                                         Over the past year, CNVS has done extensive training and re-education with programs regarding
                                         completeness of member forms as it has been one of our most significant weaknesses. CNYS
                                         has developed a manual review of each file before enrollment and has established a policy
                                         regarding this issue which is now included in member, site supervisor, and program handbooks.

                                         For the coming grant year, CNVS is also developing a tutorial series for members and programs
                                         which will illustrate how to fill out forms and how incomplete forms may affect or delay an
                                         enrollment or exit.

                                          6. Member contracts did not include required clauses on Civil Rights and Equal
                                             Opportunity.

                                          CNVS has revised the member contract to include the required clauses and all 2007-08
                                          handbooks issued to programs as of June 2008 will include a Contract Addendum with the
                                          required clause. CNVS is also developing a section in the CNVS AmeriCorps Current Members
                                          site to include this important notice.
                                     I
                                     t
                                          7. CNVS did not have documentation that mid-term and end-of-term performance
                                     1       evaluations were performed.

    Suite 820   'A   -   '       <   i    In many of the cases cited by the auditors, we did find that programs had not specified whether
"   Takoma Park, MD          ,       1    the evaluation was mid-term or end-of-term. However, in most cases, the evaluation was
                                          performed and one could identify whether it was a mid-term or end-of-term form by the date of the
    20912-4423                            signature.

                                     t    Part of the problem is that the forms are identical and only distinguishable by a check box. CNVS

    800.543.5046
                                 -1       has re-designed the form and form titles so it is clear that one form is the Mid-Term Performance
                                          Evaluation and one is the End-of-Term Member Performance Evaluation. In addition, CNVS has
                                     s
                                     I
                                          begun sending reminders and a guidance to programs and members regarding the timing of the
    301.270.0900                          mid-term and end-of-term evaluation.
                             I       f
    301.270.0901 fax
                                          8.   CNVS did not complete member enrollment, exit, and change-of-status forms and enter
    volunteerQcnvs.org               1         them into WBRS.
    www.cnvs.org                     1
                                          CNVS has developed a specific policy which states that CNVS must receive enrollment and exit
                                     i    paperwork within a 15 calendar day deadline from the service start and end dates, respectively,
                                          and it has established a process whereby late in-coming enrollments are handled so as to adhere
                                          to the Corporation's 30 day deadline. Moreover, all exiting members and corresponding
                                          programs receive a reminder exit email and checklist approximately 45 days before their
                                          expected exit date.

                                          CNVS has also developed specific tutorials on completing paperwork which have been made
                                          available to members and programs, which include information on how CNVS will handle    .
                                          incomplete paperwork and advises members and programs on consequences of incomplete or
                                          late paperwork.

                                          CNVS has an informal system for programs to request change of status which is usually via
                                          email. CNVS is currently developing a form and establishing a process which will ensure that
                                          changes of status are processed and approved by CNVS and sent to the Corporation within the
                                          limits of the deadline.
                          Catholic
                          Network of
                          Volunteer Service
                          Connecting People, Transforming Lives                                    I




                          Finally, all enrollment and exit paperwork are manually reviewed for completeness by CNVS
                          AEAP before they are processed.

                          9. CNVS did not retain documentation of member attendance at orientation sessions.

                          CNVS programs conduct an AmeriCorps orientation every year and CNVS prepares and provides
                          orientation materials to each program. CNVS has an Acknowledgement Form as part of its
                          enrollment forms where the member certifies that he or she attended the AmeriCorps orientation.
                          As mentioned earlier, these forms are now reviewed by CNVS for completeness before
                          enrollment.

                          CNVS has the Acknowledgement Form in lieu of the sign-in sheet as a more reliable and
                          consistent way to document member attendance of AmeriCorps orientation. This is preferable to
                          a sign-in sheet given the logistic considerations posed by the number and structure of programs
                          that participate in AEAP.

                          10. CNVS monitoring procedures were not fully performed, or results were not always
                              documented.                                                fi

                          Due to the fact that CNVS experienced a 100% turn-over in its full-time staff for the AmeriCorps
6930 Carroll Avenue   !
                      L   Education Awards Program, monitoring systems have not been fully developed or consistently
Suite 820             I   implemented. However, as part of an organization-wide strategic initiative, CNVS is developing
Takoma Park, MD           an internal manual for the AmeriCorps program that will include the necessary information for a
                          smooth and seamless transition in case of future turn-over.
20912-4423
                          In two years of the three-year period under review, CNVS did perform monitoring site visits which
                          were not documented or documentation was not found. As of 2007, CNVS has developed annual
                          site visit schedule and procedures for documenting the site visit which include: a site visit follow-
                          up report by CNVS with observations and findings and a response to the site visit report by the
                          program that include any corrective actions to the findings. Both reports are stored with the
301.270.0900              program file. Site visit procedures will form part of the AEAP Iblonitoring System included in the
301.270.0901 fax          internal manual.


                          Submitted by:



                                                                            Ana K. Carrion
                                                                            Coordinator
                                                                            CNVS AmeriCorps Education Awards Program
Appendix B – Corporation for National and Community Service’s Response to the
             Draft Report




                                        20
                              COMMUNITY
                              SERVICE=

To:

From:

Cc:

              Kristin McSwain, Director of AmeriCorps
              Carol Bates, Assistant Inspector General for Audit
              Sherry Blue, Audit Resolution Coordinator

Date:         June 5,2008

Sub:          Response to OIG Draft of Agreed-Upon Procedures of Grants Awarded to
              Catholic Network of Volunteer Service


Thank you for the opportunity to review the draR Agreed-Upon Procedures report of the
Corporation's grants awarded to the Catholic Network of Volunteer Service (CNVS).
We are working with CNVS on its corrective action plan. We will respond with the
management decision after we have reviewed the audit working papers and the CNVS
corrective action plan.
